<html>
<title> - OVERSIGHT HEARING ON EPA'S WORK WITH OTHER FEDERAL ENTITIES TO REDUCE POLLUTION AND IMPROVE ENVIRONMENTAL PERFORMANCE</title>
<body><pre>[Senate Hearing 112-965]
[From the U.S. Government Publishing Office]







                                                        S. Hrg. 112-965

 OVERSIGHT HEARING ON EPA'S WORK WITH OTHER FEDERAL ENTITIES TO REDUCE 
            POLLUTION AND IMPROVE ENVIRONMENTAL PERFORMANCE

=======================================================================

                             JOINT HEARING

                               before the

                      SUBCOMMITTEE ON GREEN JOBS 
                          AND THE NEW ECONOMY

                                and the

                       SUBCOMMITTEE ON OVERSIGHT

                                 of the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 27, 2012

                               __________

  Printed for the use of the Committee on Environment and Public Works



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



         Available via the World Wide Web: http://www.fdsys.gov
         
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

25-025PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001       
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                      ONE HUNDRED TWELFTH CONGRESS
                             SECOND SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
THOMAS R. CARPER, Delaware           DAVID VITTER, Louisiana
FRANK R. LAUTENBERG, New Jersey      JOHN BARRASSO, Wyoming
BENJAMIN L. CARDIN, Maryland         JEFF SESSIONS, Alabama
BERNARD SANDERS, Vermont             MIKE CRAPO, Idaho
SHELDON WHITEHOUSE, Rhode Island     LAMAR ALEXANDER, Tennessee
TOM UDALL, New Mexico                MIKE JOHANNS, Nebraska
JEFF MERKLEY, Oregon                 JOHN BOOZMAN, Arkansas
KIRSTEN GILLIBRAND, New York

                Bettina Poirier, Majority Staff Director
                 Ruth Van Mark, Minority Staff Director
                              ----------                              

             Subcommittee on Green Jobs and the New Economy

                   BERNARD SANDERS, Vermont, Chairman
THOMAS R. CARPER, Delaware           JOHN BOOZMAN, Arkansas
JEFF MERKLEY, Oregon                 JEFF SESSIONS, Alabama
BARBARA BOXER, California (ex        JAMES M. INHOFE, Oklahoma (ex 
    officio)                             officio)


                       Subcommittee on Oversight

               SHELDON WHITEHOUSE, Rhode Island, Chairman
BENJAMIN L. CARDIN, Maryland         MIKE JOHANNS, Nebraska
BERNARD SANDERS, Vermont             JOHN BOOZMAN, Arkansas
BARBARA BOXER, California (ex        JAMES M. INHOFE, Oklahoma (ex 
    officio)                             officio)
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
                            C O N T E N T S

                              ----------                              
                                                                   Page

                             MARCH 27, 2012
                           OPENING STATEMENTS

Sanders, Hon. Bernard, U.S. Senator from the State of Vermont....     1
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     3
Whitehouse, Hon. Sheldon, U.S. Senator from the State of Rhode 
  Island.........................................................     8
Boozman, Hon. John, U.S. Senator from the State of Arkansas......     9
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..   111
Sessions, Hon. Jeff, U.S. Senator from the State of Alabama, 
  prepared statement.............................................   130

                               WITNESSES

Gillespie-Marthaler, Leslie, Senior Advisor, Office of Research 
  and Development, U.S. Environmental Protection Agency..........    10
    Prepared statement...........................................    12
    Response to an additional question from Senator Carper.......    15
    Responses to additional questions from:
        Senator Inhofe...........................................    16
        Senator Sessions.........................................    20
        Senator Crapo............................................    22
Kidd, Richard G. IV, Deputy Assistant Secretary for Energy and 
  Sustainability, U.S. Army......................................    24
    Prepared statement...........................................    26
    Responses to additional questions from Senator Boxer.........    35
    Response to an additional question from Senator Carper.......    38
    Responses to additional questions from:
        Senator Inhofe...........................................    40
        Senator Sessions.........................................    43
Hicks, Thomas W., Deputy Assistant Secretary for Energy, U.S. 
  Navy...........................................................    48
    Prepared statement...........................................    50
    Responses to additional questions from:
        Senator Boxer............................................    58
        Senator Carper...........................................    61
        Senator Inhofe...........................................    63
        Senator Sessions.........................................    67
Geiss, Kevin T., Ph.D., Deputy Assistant Secretary for Energy, 
  U.S. Air Force.................................................    76
    Prepared statement...........................................    78
    Response to an additional question from:
        Senator Boxer............................................    93
        Senator Carper...........................................    94
    Responses to additional questions from:
        Senator Inhofe...........................................    95
        Senator Sessions.........................................    98

 
 OVERSIGHT HEARING ON EPA'S WORK WITH OTHER FEDERAL ENTITIES TO REDUCE 
            POLLUTION AND IMPROVE ENVIRONMENTAL PERFORMANCE

                              ----------                              


                        TUESDAY, MARCH 27, 2012

                               U.S. Senate,
         Committee on Environment and Public Works,
            Subcommittee on Green Jobs and the New Economy,
                                 Subcommittee on Oversight,
                                                    Washington, DC.
    The Subcommittees met, pursuant to notice, at 10 a.m. in 
room 406, Dirksen Senate Building, Hon. Bernard Sanders 
(Chairman of the Subcommittee) presiding.
    Present: Senators Sanders, Carper, Whitehouse, Inhofe, and 
Boozman.

          OPENING STATEMENT OF HON. BERNARD SANDERS, 
             U.S. SENATOR FROM THE STATE OF VERMONT

    Senator Sanders. The Committee will come to order.
    Thank you for being with us for what I think is going to be 
an extraordinarily interesting and important hearing. This 
hearing is a product of two Subcommittees, Senator Whitehouse's 
Subcommittee and mine, and we thought it made sense to do a 
joint hearing. We are delighted that Senator Boozman and 
Senator Inhofe are here as well. Perhaps other members will be 
coming.
    As I think our panelists know, we thank them very much not 
only for the work they are doing but for being here this 
morning.
    There is somewhat of a debate in the U.S. Congress and in 
the U.S. Senate which I expect you may hear of today about the 
nature of global warming. There are some who believe that 
global warming is not real; there are some who believe that 
global warming is not significantly caused by human activity; 
and there are some of us who very strongly disagree with those 
who think not only that global warming is real, but we believe 
that global warming is causing very significant problems to our 
planet today and is costing us huge amounts of money in terms 
of dealing with extreme weather disturbances.
    Senator Whitehouse and I just last month had a very 
interesting hearing with representatives of the insurance 
industry, of all people. These are not card carrying members of 
the environmental community. They simply have to pay the bills 
when we have floods, droughts, tornadoes, and hurricanes. They 
say these things are erupting far more than they were in the 
past; they are costing us a lot of money, and Congress is going 
to have to deal with the issue.
    Today, we are focusing on the role of the United States 
military in terms of dealing with global warming. Let me simply 
say that assessments from our own intelligence community--CIA 
and others--show ``A climate change could have significant 
geopolitical impacts around the world contributing to poverty, 
environmental degradation, and the further weakening of fragile 
governments.'' In other words, if you have more droughts, if 
you have more floods, if people don't have enough food to eat, 
if you are seeing migrations of people, this causes 
international instability which is of some concern, to say the 
least, to the U.S. military.
    Furthermore, the military investing in energy efficiency 
and sustainable energy is not just about reducing greenhouse 
gas emission. This is a very important point to make. It is 
about military strategy as well. It is about protecting our 
soldiers in the field.
    According to the Army Environmental Policy Institute 1 out 
of every 24 fuel resupply convoys in Afghanistan resulted in a 
casualty--1 out of every 24. In Iraq estimates show that 1 of 
every 8 soldiers killed was protecting a fuel convoy, moving 
fuel in hostile regions resulting in casualties. These fuel 
convoys are by definition targets for our enemies, and that is 
why the marines have developed innovative solar powered 
operating bases that can store energy with battery technology. 
In Afghanistan two fuel bases ran on solar energy exclusively 
for a 7-month period.
    While some here may put down solar or sustainable energy, 
some in the Congress, we know that for the military solar is 
about reducing risks to our troops. It is about saving lives.
    Sustainable energy investments by the military also benefit 
the taxpayer. The Department of Defense is the largest consumer 
of energy in America and I believe in the entire world with a 
fuel bill for petroleum alone of over $17 billion in 2011. It 
is no wonder that the military sees reducing reliance on costly 
fossil fuels--imported in some cases from hostile, unstable 
nations--as a priority. That is why it is good news, in my 
view, when the Air Force tested a 50 percent biofuel blend for 
jet fuel and the Navy tested a 50 percent algae blend in a 
destroyer. I congratulate them for moving forward in these 
areas.
    There is also huge potential for savings at bases. DOD 
manages facilities with total square footage three times larger 
than Walmart. In Vermont I worked with our National Guard to 
fund the installation of over 1.45 megawatts of solar 
photovoltaic energy which is saving the National Guard about 
$250,000 a year in energy costs.
    We know we can do that on more bases around the country. 
Some years ago I went to Nellis Air Force Base, and they have a 
huge PV system there which is working as I understand very well 
in Nevada. Also, we know the Army is working with the EPA to 
develop bases that are net zero energy consumers by increasing 
efficiency and generating renewable energy onsite.
    I commend the U.S. military for taking a leadership role in 
sustainable energy. It is right for our soldiers, for our 
national security, and for our environment.
    Senator Boozman.
    Senator Boozman. With your permission, Mr. Chairman, I 
would like to defer to our Ranking Member who is running back 
and forth between here and Armed Services.
    Senator Sanders. Without objection.
    Senator Inhofe. Thank you.
    I may have a way, Mr. Chairman, for you to just get rid of 
me.
    Senator Sanders. Not at all, Jim.

          OPENING STATEMENT OF HON. JAMES M. INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Mr. Inhofe. If you will allow me to do something rather 
unusual, to go ahead and have time for an opening statement and 
then make a comment I was going to make. During his opening 
statement he can respond to it, and I can go back down to Armed 
Services. That would kind of double my time then I am out of 
here.
    I have a great deal of respect for the Chairman. He and I 
disagree on this whole idea, and I have looked at it, and in 
fact I even wrote a book about it which I hope you will read at 
some point, that it may be that you and others believe that all 
this global warming stuff is taking place, and the world is 
coming to an end. If you just look in the last 100 years, 1895 
to 1925, it was a cooling period, and everyone said another ice 
age was coming. Then from 1925 to 1945 it was another global 
warming and everyone got hysterical. From 1945 to 1975 there 
was another cooling spell. Then it went into the current one, 
and now it is cycling around, and it is getting cooler. We all 
understand that.
    Here is the interesting thing. The largest surge in 
emissions of CO<INF>2</INF> took place after World War II in 
1945. That precipitated not another 30 years of warming but of 
cooling. It is kind of interesting.
    The comment I would make and just drop the subject of 
global warming is the vast majority of the members of the House 
and the Senate, talking about the House and the Senate even 
back when the majority were Democrats, don't agree with that. 
They don't agree with the position stated by the Chairman 
because we have had a chance to vote on this several times. The 
most votes they can get in the U.S. Senate right now might be 
25 out of 100.
    I would like to comment because something happened I 
noticed this morning, a news report that Obama and the EPA are 
going to be announcing today the global warming regulations at 
new power plants. This is at a time when everyone is all 
concerned about the price of gas at the pumps. It is alarming 
they would put forward more costly global warming regulations 
that will, as the President had promised, in his words, 
``ensure energy costs will necessarily skyrocket.''
    Specifically, these new rules will have a devastating 
impact on coal-fired power plants, political rights that this 
rule promises to change the way the U.S. gets its power. The 
Sierra Club hopes that it will mean we will never have another 
coal-fired power plant built. That may happen because this only 
talks about new coal plants.
    The rule is proof that President Obama's latest rhetoric on 
an all of the above approach to energy is simply lip service to 
helping his reelection chances as gas prices skyrocket. Yet 
this rule clearly shows that the Administration remains 
committed to a war on affordable energy that has been 
happening, and it is happening now.
    I want to serve notice that we had to do the same thing on 
Utility MACT, that if this rule is finalized, it is written in 
the Federal Registry, I will do a CRA, Congressional Review Act 
on this. I think if nothing more--particularly right now when 
everyone is concerned about the high price of gas, you can't 
take energy and divide it. Energy is energy, and it competes. 
Fuel switching causes an increase in gas prices. I think it is 
important for everyone to be on record on this. I think the 
Chairman would agree with this.
    The one thing I was going to point out was the Chairman 
mentioned the Air Force started this program of 50-50. That 
happened to be with Fischer Tropsch which was a Tulsa, 
Oklahoma, operation. I was very much involved in that. We 
started using that, first of all, I say to you, Mr. Chairman, 
in B-52s, and we ended up with all of our fleet. It worked very 
well.
    However, when they had the 526 come in, saying you could 
not exceed the footprint of fossil fuels, the cost is just 
incredible. I would say that perhaps the Under Secretary of the 
Navy might want to respond to this, if you decided the cost 
would be, and I have the breakdown here, under the great green 
fleet, it needs 8 million barrels of biofuel by 2020. That is 
336 million gallons. EIA just last month said the kerosene type 
fuel's spot price was $3.26 a gallon, the cost of recent algae 
fuel procurement project, a biofuel, is $15 a gallon. You take 
the difference between conventional and biofuel blend, the 
difference is $3.9 billion.
    I would just ask that you look at what you can do with $3.9 
billion at a time we are making cuts that amount to half a 
trillion dollars over the next decade. If sequestration comes 
in it is going to be even worse. I don't know if anyone doesn't 
agree it adds disaster to our military.
    With the same amount of money you could buy 19 more F-35s, 
buy 46 more SM-3 Block 1B interceptors at $2 billion apiece. I 
have a long list that I am going to ask be made a part of the 
record during these comments.
    I say this to Mr. Hicks--as you are responding to this, 
maybe talk about the alternatives, what you could do to better 
defend America for this amount of money. You might have some 
comments. If you can't do it without having time to look at it, 
do it for the record. If we could do that, Mr. Chairman, I 
would appreciate it very much.
    [The referenced information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
     
    [The prepared statement of Senator Inhofe follows:]

                  Statement of Hon. James M. Inhofe, 
                U.S. Senator from the State of Oklahoma

    Chairman Sanders, thank you for holding this important 
hearing today. I believe one of the primary reasons for this 
hearing is to highlight the Obama administration's efforts to 
impose its green energy agenda on our military. I have long 
been outspoken in my opposition to their use of the military to 
promote a green agenda at the expense of affordable energy. Gas 
prices today are skyrocketing, yet here we are today talking 
about an alternative energy agenda that will force our military 
to spend even more on energy resources at a time when the Obama 
administration is gutting our military budget.
    Now let me be clear: I have always supported efforts to 
make more efficient use of our natural resources and taxpayer 
dollars. For instance, EPA's WaterSense program, a voluntary 
public-private partnership, is a great example of a cost-
effective conservation program geared toward saving money and 
protecting water resources. What I don't support, however, are 
policies that are designed to raise the price of traditional 
energy to make alternatives more competitive, especially at a 
time when our military and American families can least afford 
it.
    I'm glad to welcome witnesses from the Department of 
Defense (DoD) at the table because I will have a number of 
questions for you. As I pointed out last week in an Armed 
Services hearing, I am deeply disappointed that DoD is 
expending increasing amounts of its scarce resources on 
expensive alternative energy when your budget is being slashed 
by a half-trillion dollars over the next 10 years. DoD is 
already drastically cutting its personnel, the number of 
brigade combat teams, tactical fighters, and airlift aircraft. 
It is cutting or postponing programs such as the C-27, Global 
Hawk Block 30, C-130 avionics modernization, the F-35, the 
littoral combat ship, the next generation ballistic missile 
submarine, and the ground combat vehicles. Forcing DoD to 
expend more money on expensive alternative fuels further 
exacerbates its budget issues. For example, the Secretary of 
the Navy has pledged taxpayer funds of $170 million as their 
share of a $510 million effort to construct or retrofit biofuel 
refineries in order to create a commercially viable market and 
recently purchased $26 per gallon fuel. And as if the Services 
are not already stressed by serious budget cutbacks, the 
Secretary directed the Navy and Marine Corps to produce or 
consume 1 gigawatt of new, renewable energy to power naval 
installations across the country. I frankly do not believe you 
should be using defense funds to develop private sector 
alternative energy capability especially when we're delaying 
and canceling the important projects mentioned above. With a 
range of domestic alternatives already commercially viable and 
in use such as CNG or LNG, taxpayer funds do not need to be 
used to pick winners and losers.
    Make no mistake, this Administration's policies are killing 
jobs, undermining the economy, and threatening America's long-
term security. I don't share the opinions of Senator Boxer and 
Al Gore that global warming will be the leading cause of 
conflict in our world over the next 20 years or that it is more 
of a threat than terrorism. Forcing our military to take money 
away from core programs in order to invest in unproven 
technologies as part of a failed cap-and-trade agenda is not 
only wrong, it's reckless. Any discussion of ``EPA's work with 
other Federal entities to reduce pollution and improve 
environmental performance,'' as this hearing is titled, must 
include a discussion of policies that restore balance between 
policies that protect the environment and those that kill jobs 
and weaken our national security. I hope that the Senate will 
soon act to restore that balance.

    Senator Sanders. Yes.
    Jim, what did you want to say?
    Senator Inhofe. I was saying it would be very difficult for 
him to provide it now. I do apologize. It seemed like back when 
Republicans were majority, and I chaired this Committee, we 
were going to be able to do something about these conflicting 
committees. We were able to do it; you are not able to do it; 
so I have to go to the Armed Services Committee.
    Senator Sanders. OK. Thank you.
    Senator Whitehouse.

         OPENING STATEMENT OF HON. SHELDON WHITEHOUSE, 
          U.S. SENATOR FROM THE STATE OF RHODE ISLAND

    Senator Whitehouse. Thank you.
    I am very happy to co-chair this hearing today with my 
colleague from Vermont, Senator Sanders, regarding EPA's role 
in the military's efforts to become more efficient, more energy 
independent, and more sustainable.
    A quiet transformation is taking place in our Armed 
Services, a clean energy transformation. Our men and women in 
uniform are working to reduce demand for fuel convoys through 
enemy territory, make our military bases less dependent on the 
grid, and test alternative jet fuels so as to lessen our 
dependence on Middle East oil. They are also looking for 
innovative ways to cut water use and waste.
    Some of these efforts grew out of the grim realities of a 
decade at war. Last summer the Department of Defense reported 
that over 3,000 soldiers or contractors have been killed in 
fuel supply convoys between 2003 and 2007 in the Iraq and 
Afghanistan; 80 percent of all supply trucks operating in those 
zones of conflict are fuel trucks. Over-dependence on oil costs 
us lives and dollars.
    Secretary of the Navy Mabus has calculated that for every 
$1 increase in the price of a barrel of oil the Navy's energy 
costs rise by $31 million. The Wall Street Journal reported 
recently on Pentagon information showing that if we think that 
$4 per gallon gasoline is expensive here at home, the all in 
cost for a gallon of gasoline delivered in Afghanistan was $400 
a gallon.
    The U.S. military understands that greenhouse gas pollution 
from these fuels is driving global climate change and that this 
change in our oceans and atmosphere has made security 
implications. The White House has provided key leadership to 
the military's efforts to deploy renewable energy and reduce 
energy use.
    In 2009 President Obama signed Executive Order 13514 
setting sustainability and greenhouse gas reduction goals for 
the Federal Government. This Executive Order built on a 
Sustainability Executive Order signed by President George Bush 
in 2007. President Obama's Executive Order called for energy 
efficiency efforts that would result in a 28 percent cut in the 
Government's 2009 greenhouse gas emissions by 2020 for a cost 
savings of $8 billion to $11 billion.
    When each Federal agency set energy efficiency targets for 
this framework, the Department of Defense rose to the 
challenge, pledging the most ambitious reductions of any 
agency. The military has been aggressive in meeting these 
targets. Just last week, the Army announced it will work with 
industry to deploy up to $7 billion in renewable energy 
resources--wind, solar, and geothermal--on its bases. This 
announcement is the Army's latest effort to meet its goal of 
producing 25 percent of its energy needs through renewable 
energy by 2025.
    The U.S. Air Force is an award winning member of the 
Environmental Protection Agency's Green Power Partnerships 
Program. In fiscal year 2011, this military branch had about 
194 renewable energy projects on 71 sites either in operation 
or under construction. The U.S. Navy has set a goal of 
producing at least 50 percent of its onshore energy from 
alternative sources by 2020.
    In my home State of Rhode Island, Naval Station Newport has 
proposed a wind installation to provide much of its power. In 
2008 Naval Station Newport was recognized by the Navy for 
having reduced its energy use from a 2003 baseline by 28 
percent through a base-wide energy efficiency program. The 
military is moving toward a cleaner energy future.
    I am grateful that our witnesses from the military branches 
are here: Richard Kidd, IV, Deputy Assistant Secretary for 
Energy and Sustainability, U.S. Army; Thomas Hicks, Deputy 
Assistant Secretary for Energy, U.S. Navy, and he will be 
representing both the Navy and the United States Marine Corps 
at this hearing; and Dr. Kevin Geiss, Deputy Assistant 
Secretary for Energy, U.S. Air Force.
    These men have strong military backgrounds as well as 
energy expertise, and it speaks volumes that they hold these 
positions and that our military branches have these positions.
    For many Federal agencies, the Sustainability Executive 
Order marks the first time they attempted to incorporate 
sustainability into their operations. The EPA, however, has 
always had sustainability as its core mission. That is why 
Federal agencies and entities look to the EPA as a leader in 
the Governmentwide efforts to reduce greenhouse gas pollution 
and energy use.
    Over the past several years, EPA has worked with the 
military on a number of sustainability efforts citing renewable 
energy installations on military brownfields, funding biofuels 
research, and reducing military use of pesticides and other 
chemicals. However, only very recently are these relationships 
being formalized.
    Last November the Army and EPA entered an MOU formalizing 
EPA's support of the Army's net zero-based initiative. Their 
work will begin by focusing on wastewater and stormwater 
management at two Army bases. Last month EPA's Office of 
Research and Development and the Department of Defense entered 
into a second MOU pledging to work together to deploy cutting 
edge technologies that make military operations more 
sustainable.
    I look forward to learning more in this hearing about the 
plans to execute these MOUs and how we can help. I also look 
forward to hearing from EPA's witness, Leslie Gillespie, who is 
herself a West Point graduate, a former active duty member of 
the U.S. Army and one of the point persons at EPA for 
cooperative efforts with the military.
    These are exactly the type of strategic partnerships we 
need to push forward in the clean energy and energy efficiency 
fields. I thank everyone for their participation in this 
hearing.
    I yield to Senator Boozman.

            OPENING STATEMENT OF HON. JOHN BOOZMAN, 
            U.S. SENATOR FROM THE STATE OF ARKANSAS

    Senator Boozman. Thank you, Chairman Whitehouse and 
Chairman Sanders, for having the hearing today and looking into 
the collaboration between the EPA and the Department of Defense 
on pollution reduction and environmental performance issues. 
These are valuable, worthwhile efforts.
    At the same time, we must keep our priorities straight. The 
mission of the military must be to have the best trained, most 
well equipped and capable fighting force on the planet. The 
Department can and should fulfill this mission and maintain 
appropriate environmental safeguards. However, if we find that 
minor improvements come at the expense of the core mission of 
the Department of Defense, we should reexamine our priorities.
    Please understand that I know helping the war fighter and 
achieving environmental goals can be complementary to each 
other. We simply need to know what are the benefits, what are 
the costs, what are the highest priorities when we have limited 
resources and tremendous needs. There is no doubt that smart 
energy efficiency improvements can provide benefits to the men 
and women in uniform and provide long-term savings to the 
taxpayer.
    Ultimately, this may not be the most exciting hearing we 
are going to have in Congress today or in the near future, but 
it is very, very important. I sit on both the Subcommittees 
represented here today, and I am glad to see the Oversight 
Subcommittee holding one of its first hearings, and I hope that 
in the future we have many more.
    I served in the House of Representatives at the time in the 
majority and at the time in the minority. I served during both 
the Bush and Obama administrations. During that experience, I 
found that strict oversight was--though sometimes painful--
ultimately beneficial to the Administration and helps to 
prevent minor problems from growing into big problems.
    Again, I know that we are all interested in doing all that 
we can to help you all in your efforts and hope to play a 
continued role as we go forth this year.
    Thank you again, Mr. Chairman, for convening the hearing.
    Senator Sanders. Thank you very much, Senator Boozman.
    Now we will hear from our panelists. Senator Whitehouse has 
already introduced the panelists. I don't think you need a 
second introduction. Why don't we begin with Leslie Gillespie-
Marthaler.
    Thank you very much for being with us, and we would love to 
hear from you.

STATEMENT OF LESLIE GILLESPIE-MARTHALER, SENIOR ADVISOR, OFFICE 
  OF RESEARCH AND DEVELOPMENT, U.S. ENVIRONMENTAL PROTECTION 
                             AGENCY

    Ms. Gillespie-Marthaler. Good morning, Chairman Sanders, 
Chairman Whitehouse, Ranking Member Boozman, and other members 
of the Subcommittees.
    My name is Leslie Gillespie-Marthaler, and I am the Senior 
Advisor in the Office of Research and Development at the 
Environmental Protection Agency. I am happy to be here today to 
talk to you about our partnership with the U.S. military to 
conduct research and technology demonstrations on innovative 
water treatment and infrastructure technologies.
    Let me start by saying that EPA is very proud to be 
partners with the Department of Defense as they develop and 
deliver water technology solutions by leveraging EPA's 
expertise. EPA has two Memorandums of Understanding with the 
Department of Defense, specifically with the Assistant 
Secretary of the Army for Installations, Energy and Environment 
and with the Deputy Under Secretary of Defense for 
Installations and Environment.
    On November 28, 2011, the EPA and the Army signed an MOU to 
partner on mutual and interrelated interests in the areas of 
water, energy, and waste through joint development and 
demonstration of new applications and technologies. These can 
be used on Army installations in order to achieve net zero 
goals.
    The Army's net zero goal is to move installations closer to 
consuming only as much energy or water as they produce and 
eliminating solid waste sent to landfills. The goal of the MOU 
is to partner on the development of integrated solutions to 
environmental challenges such as water quality, conservation, 
and reuse and to create innovative approaches toward addressing 
challenges of urban stormwater management and energy efficiency 
within water infrastructure systems. EPA is also collaborating 
with the Department of Energy in order to better understand the 
water-energy nexus.
    We will use the remainder of fiscal year 2012 as a period 
for planning our research for the months and years ahead. 
Implementation will begin in fiscal year 2013. EPA seeks to 
leverage existing resources to achieve mutual goals that 
initially benefit Army communities and eventually benefit 
communities across the country.
    Our efforts are focused on helping Army installations. 
Together as partners, we chose to begin our initial 
collaboration at two installations, Joint Base Lewis-McChord, 
Washington, and Fort Riley, Kansas. On February 7, 2012, the 
EPA and DOD signed an MOU to jointly promote and demonstrate 
innovative technologies on DOD bases. This not only complements 
the partnership with the Army but expands opportunities to 
promote and transfer technology successes across the board to 
military bases and surrounding communities. We are in the 
initial stages of discussion with DOD at this time.
    In conclusion, our partnership with DOD supports EPA's 
mission of protecting public health and the environment within 
military communities through shared solutions, technology, and 
innovation. This partnership demonstrates how Federal agencies 
are creatively advancing one another's expertise and mission 
through science-based technologies and approaches. To maximize 
the opportunity of this partnership, we look forward to 
collaborating with other Federal agencies, stakeholders, and 
most importantly with surrounding communities.
    I appreciate the opportunity to testify before you today 
and will be happy to respond to any questions you may have.
    [The prepared statement of Ms. Gillespie-Marthaler 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Senator Sanders. Thank you very much.
    We have been joined by Senator Tom Carper of Delaware.
    Our next panelist is Richard G. Kidd, IV, Deputy Assistant 
Secretary for Energy and Sustainability, U.S. Army.
    Thanks very much for being with us.

 STATEMENT OF RICHARD G. KIDD, IV, DEPUTY ASSISTANT SECRETARY 
            FOR ENERGY AND SUSTAINABILITY, U.S. ARMY

    Mr. Kidd. Thank you very much, Chairman Sanders and 
Chairman Whitehouse, Ranking Member Boozman and other members 
of the Subcommittees for having me here today. It is a pleasure 
to be here and to discuss the Army's energy security and 
sustainability efforts.
    The Army is addressing energy security through development 
of force-wide energy doctrine and operating principles, 
technological investments, operational training, education, 
facilities management which are all critical aspects of 
instilling a mindset of conservation, efficiency, and 
sustainability.
    While these efforts will have many intended benefits, you 
should be clear that the Army does this for the simple reason 
that we believe energy security is essential for the Army to 
meet mission requirements now and in the future. Reducing 
energy use across the Army is mission critical, operationally 
necessary, and financially prudent.
    The Army recognizes the value of collaboration and we are 
working closely with several public and private organizations 
to meet our energy security requirements. These include the 
Office of the Secretary of Defense, other military services, 
the Environmental Protection Agency and the Department of 
Energy.
    In particular, we entered a Memorandum of Understanding 
with the Environmental Protection Agency last year for water 
programs to identify and demonstrate new applications and 
technologies. The Army is the largest facilities energy user of 
electricity in the Federal Government representing just over 20 
percent of the Federal Government's electric energy bill.
    Since 2003 the Army has been able to reduce the consumption 
of electricity on installations by over 13 percent despite the 
fact that the total number of active soldiers and civilians has 
gone up by 20 percent. Operationally, the Army spends 40 
percent of its liquid fuel to reduce electricity in generators.
    To meet statutory requirements and Army energy security 
goals, the Army plans on using a variety of appropriated funds 
as well as third party financing. The Army is currently the 
largest user of energy performance contracts in the Federal 
Government. Going forward, assuming that the fiscal year 2013 
budget is approved by Congress, we plan to execute $393 million 
in appropriated energy projects, $400 million in energy savings 
performance contracts, and up to $700 million in renewable 
energy projects. The answer to questions posed by the 
committee, if all of these funds go forth, that represents at 
least 15,000 jobs created.
    Army investments in energy projects throughout all of these 
mechanisms are subject to thorough cost-benefit analysis to 
ensure that the life cycle costs of these projects will be 
positive and beneficial to the Army. Additionally, integral to 
all of our efforts is cultural change and the requirement to 
implement a holistic, integrated design approach to our 
installations and to our operations in the field.
    In this regard, we have announced the Army Net Zero 
Initiative. Net Zero Initiatives will move closer to the 
objective of consuming only as much energy and water as they 
produce and eliminate solid wastes to landfills. When fully 
implemented, Net Zero installations will establish model 
communities for energy security, sustainability, value, and 
quality of life. Seventeen installations have been identified 
to pilot this effort.
    As mentioned earlier, last November we signed a Memorandum 
of Understanding with the Federal Environmental Protection 
Agency's Office of Research and Development for water intensity 
reduction to maximize the Army's Net Zero Water Initiative. The 
Army and the EPA are working jointly to advance the development 
of new, science-based applications and technologies that can be 
implemented to achieve Net Zero energy, water, and waste goals.
    The Army-EPA MOU complements the DOD-EPA Memorandum of 
Understanding signed February 7, 2012. In addition, the Army's 
Tank and Automotive Research, Development and Engineering 
Center, TARDEC, has an MOU with the Department of Energy, and 
the Army participates as part of the Department of Defense's 
broader MOU with the Department of Energy.
    In regard to renewable energy, to streamline the process of 
developing large scale renewable energy projects on Army lands, 
last September we established the Energy Initiatives Task Force 
known as the EITF. The Energy Initiatives Task Force serves as 
the central management and negotiation office to augment 
installation staff for the development of renewable energy 
projects greater than 10 megawatts.
    They are currently reviewing 15 projects and have a further 
81 that they are modeling and under development. Of these 81, 
they are at or below grid parity costs for like sources of 
electricity.
    In conclusion, the Army is working diligently to improve 
our energy security posture. I did not prepare remarks on 
operational energy, but just to reflect the comments made 
earlier, this year the Army will be deploying two entire 
Airborne Brigade combat teams to Afghanistan equipped with new 
soldier power solutions to include renewable power systems to 
recharge soldier batteries lightening their load in combat.
    Improved energy security means increased mobility by not 
being tethered to supply lines, foreign suppliers, or volatile 
energy markets. Investment in energy capabilities including 
renewable energy and energy efficient technologies will help 
ensure that the Army can meet mission requirements today and 
into the future.
    Not only is it the smart thing to do, it is the right to do 
from both an operational and financial standpoint.
    I thank you for your attention and look forward to your 
questions.
    [The prepared statement of Mr. Kidd follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
    
    Senator Sanders. Thank you very much, Mr. Kidd.
    Mr. Thomas W. Hicks is the Deputy Assistant Secretary for 
Energy, United States Navy.
    Mr. Hicks, thanks very much for being with us.

 STATEMENT OF THOMAS W. HICKS, DEPUTY ASSISTANT SECRETARY FOR 
                       ENERGY, U.S. NAVY

    Mr. Hicks. Thank you, Senator.
    Chairman Sanders, Senator Whitehouse, Senator Boozman, 
Senator Carper, members of the Subcommittee, I am pleased to be 
here before you today to provide an overview of the Department 
of Navy's energy investments.
    Time permitting, I would like to address the questions 
posed by Senator Inhofe rather than taking those for the 
record.
    The Department of the Navy's fiscal year 2013 budget 
request includes $1 billion and $4 billion across the future 
years' defense plan for operational and shore energy 
initiatives. Our energy investments are not about advancing an 
environmental agenda or to be green. Our energy investments are 
about improving our combat capabilities, increasing our mission 
effectiveness, and reducing our vulnerabilities to foreign 
sources of fossil fuel, and for those brave sailors and marines 
deployed overseas, it is about bring more of them home safely 
to their families.
    We are on track and intend to meet the energy goal set 
forth by Congress and the Secretary of the Navy. We understand 
that energy is an essential resource for the Navy and the 
Marine Corps requirement. Our use of new energy technologies 
and resources will allow us to reduce our dependency on fuels 
that negatively impact our economy and reduce our vulnerability 
to price volatility.
    Every time the cost of a barrel of oil goes up $1, it costs 
the Department in excess of $30 million in fuel costs. In 
fiscal year 2012, in large part due to political unrest in oil 
producing regions, the price per barrel of oil has risen $38 
over what was originally, raising the Navy's fuel bill in 
fiscal year 2012, the year of execution, by more than $1 
billion. These price spikes must be paid for out of our 
operations, meaning our sailors and marines are forced to sail 
less, fly less, and in short, train less.
    In efforts to meet Congress' renewable energy goals and the 
Department of Navy's goal of procuring 50 percent of our 
offshore energy from alternative sources, we are developing a 
strategy to identify and execute large scale renewable 
projects. We will use existing third party financing mechanisms 
to avoid adding cost to the taxpayers.
    Under the direction of Congress and our Commander in Chief, 
and in partnership with other Federal agencies, we have two 
major initiatives underway. The first is advancing the 
consumption of 1 gigawatt of renewable energy generation on or 
near our installations. While a seagoing service, we own more 
than 3 million acres of land and over 72,500 buildings. We will 
facilitate the production of large scale renewable power 
projects on naval installations, we will use third party 
financing mechanisms such as power purchase agreements, joint 
ventures, and enhanced use leases to avoid adding costs to the 
taxpayers.
    Currently our bases support over 350 megawatts of renewable 
energy through a variety of sources such as solar, wind, and 
geothermal. Recently, we have awarded contracts for three solar 
projects in the southwest and are finalizing a similar contract 
in Hawaii. The three awarded power purchase agreements at China 
Lake, Twenty-Nine Palms and Barstow will save the Department 
$20 million over 20 years, and in all three cases we will be 
paying less per kilowatt hour than we would be for conventional 
power.
    Operationally, we are undertaking numerous initiatives such 
as hybrid electric drives, stern flaps, propeller coatings, 
paint coatings to make our fleet of 285 ships and 3,700 
aircraft more efficient. This results in greater combat 
capability while potentially saving many millions of dollars.
    The Marine Corps Experimental Forward Operating Base 
Initiative has reduced fuel supply vulnerability and has also 
delivered greater combat capability by deploying renewable 
energy technologies throughout the Afghanistan theater. In 
addition to these efforts, a second major initiative is being 
undertaken in conjunction with the U.S. Departments of 
Agriculture and Energy to accelerate a domestic biofuels market 
capable of delivering advanced biofuel blends that meet or 
exceed all commercial and military specifications that do not 
require any modifications to our ships, aircraft, or 
infrastructure, that do not compete for food, and that do not 
cost any more than conventional fuel.
    To date, we have tested all of our manned and unmanned 
aircraft and a majority of service combatants. Later this 
summer at the rim of the Pacific, 2012, at the world's largest 
naval exercise, we will sail a carrier strike group on 50-50 
biofuel blends.
    As we implement these initiatives, the Department continues 
to deploy methods to promote behavioral and cultural change 
through education and training to ensure that the energy is 
understood to be a strategic and tactical capability that 
enables us to conduct our tactical and expeditionary shore 
missions.
    In closing, your support of the Department's fiscal year 
2013 budget request ensures we can build and maintain 
facilities and an operational fleet that enables our Navy and 
Marine Corps to meet the diverse challenges of tomorrow.
    Thank you for the opportunity speak before you today, and I 
look forward to answering any questions you may have.
    [The prepared statement of Mr. Hicks follows:]
    
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
      
    Senator Sanders. Mr. Hicks, thank you very much.
    Our next panelist is Dr. Kevin T. Geiss, Deputy Assistant 
Secretary for Energy, U.S. Air Force.
    Dr. Geiss, thanks for being here.

STATEMENT OF KEVIN T. GEISS, PH.D., DEPUTY ASSISTANT SECRETARY 
                   FOR ENERGY, U.S. AIR FORCE

    Mr. Geiss. Chairman Sanders, Chairman Whitehouse, Ranking 
Member Boozman, Senator Carper, distinguished members of the 
Committee, thank you for inviting me to testify and provide an 
overview of how the United States Air Force is working to 
improve its energy security through conservation in pursuit of 
clean energy sources.
    From aviation operations to installation infrastructure 
within the homeland and abroad, energy enables the dynamic and 
unique defense capabilities of global vigilance, global reach, 
and global power that our Air Force needs to fly, fight, and 
win in air, space, and cyberspace. Our focus will continue to 
be on improving our energy security to ensure we have the 
energy when and where we need it to conduct our national 
security missions.
    As the largest single consumer of energy in the Federal 
Government, the Air Force spent $9.7 billion on fuel and 
electricity last year. That is $1.5 billion more than we spent 
in 2010. This increase occurred even as we decreased our 
overall consumption 17 percent since 2003. With the price of 
energy increasing and our budget decreasing, energy is becoming 
a larger share of the Air Force budget, going from 3 percent in 
2003 to over 8 percent for fiscal year 2011. Reducing our 
energy footprint is one way we can avoid these increases.
    There is more to energy than saving money. There are global 
security risks from depending solely upon traditional energy 
supplies as access and costs are impacted by natural disasters, 
terrorism, and political or economic instability. We are taking 
steps to assure our energy supplies and to improve our 
resiliency while reducing energy demand while expanding the use 
of clean energy sources.
    From the standpoint of reducing demand, we first look to 
our biggest fuel user, aircraft. Our goal is to reduce to 
consumption of aviation fuel 10 percent by 2015 as compared to 
2006. To date, consumption is down 4 percent by optimizing 
aviation operation through policy and investment, developing 
partnerships with the commercial transportation industry, and 
working with the Department of Defense and our sister Services.
    Eighty-four percent of our energy costs come from aviation, 
and one of the biggest consumers is the Air Mobility Command. 
AMC provides airlift, aerial refueling, disaster response, and 
aero medical evacuation. They fly some of our largest aircraft 
and send over 900 flights a day all around the world.
    By streamlining operations and promoting operational 
efficiencies, AMC's cost to move 1 ton of cargo 1 mile is down 
21 percent since 2006. While the Mobility Air Force's fuel 
consumption increased 3 percent from 2006, they are hauling 27 
percent more cargo.
    While we work hard to reduce demand, we are also focused on 
diversifying our energy supplies. We set an ambitious goal to 
be prepared by 2016 to meet half of our domestic jet fuel needs 
through alternative blends. These blends must be replacements 
that are cost competitive with traditional petroleum fuels and 
meet our environmental and technical specifications.
    To get there, we are certifying our aircraft to fly on 
three different alternative fuel blends that are half petroleum 
JP-8 and half alternative fuel. To date, the Air Force has 
certified our entire fleet on synthetic fuel and expects to 
have full fleet certification on biofuel by the end of this 
year. We have sent a strong message to industry that we are 
ready when they are ready.
    The Air Force and EPA have worked closely over the past few 
years as part of interagency working groups looking at the 
environmental aspects of those fuels including calculating 
greenhouse gas footprints. From a facilities perspective, Air 
Force has a goal to develop significant amounts of on-base 
clean energy sources. We have been a green power partner with 
the EPA since 2003, and we are currently the second largest 
user of such power in the Federal Government. That accounts for 
only 6 percent of our total facility energy usage.
    During our partnership, we have received multiple awards 
for leadership in clean energy. While those accolades are 
appreciated, they are not what drives us. We are developing 
these projects for the same reason we take on all of our energy 
initiatives: to improve energy security. Ultimately, a more 
robust, resilient, and ready energy security posture enables 
our war fighters, expands operational effectiveness, and 
enhances overall national security.
    This concludes my opening remarks. Thank you again for 
providing this opportunity, and I appreciate your support of 
our airmen, their families, and I look forward to your 
questions.
    [The prepared statement of Mr. Geiss follows:]
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
   
    Senator Sanders. Dr. Geiss, thanks very much.
    Senator Carper, did you want to make an opening statement?
    Senator Carper. I would appreciate maybe when I ask my 
questions, if I could use a couple minutes before I ask 
questions to do that.
    Thanks so much.
    Senator Sanders. Let me begin. I will throw it out to 
anyone who wants to jump in.
    To give you some examples, I come from a cold weather 
State, or it used to be a cold weather State. We have had a 
very warm spring, and we found that when we weatherize older 
homes, we can cut fuel consumption by 30 or 40 percent just by 
doing that.
    Let me ask anyone who wants to jump in, if this country 
were aggressive in trying to deal with what many of you discuss 
as one of your missions of military which is to save lives 
while trying to make this country more secure, in terms of 
energy efficiency and sustainable energy, whether biofuels, 
solar, wind, geothermal, what do you see as the potential in 
terms of the role the United States military can be playing, 
and where they can eventually move?
    Dr. Geiss, you began to talk about the use of biofuels. Why 
don't you start it off? Where can we go? Where is the potential 
here?
    Mr. Geiss. Senator, I will answer the question on biofuels 
first. I think what we are looking at in diversity and supply 
is resiliency. As we look at our Air Force, and I mentioned 
those 900 flights a day we fly all around the world, plus our 
combat aircraft, we are looking for opportunities to use other 
sources of fuel, not only domestically or as we operate around 
the world. Having a singular source of petroleum provides some 
challenges as we operate, and we believe that alternative fuels 
will give us more freedom of action and greater resiliency and 
diversity.
    Senator Sanders. Let me ask you this. As somebody who may 
be watching this would think, do you have any concerns about 
the safety of this fuel? Are our aircraft any less safe using 
this fuel than just petroleum?
    Mr. Geiss. I don't have any concerns but you might better 
speak to a pilot, and I have done so. Just about a year ago, I 
had the privilege of being at Joint Base Andrews, and our 
Thunderbirds flew on that 50-50 blend of a hydro-treated 
renewable jet. I can say it was a moment of pride for me to see 
that happen. As soon as those planes landed, I went over and 
spoke to those pilots. My first question was, did you feel a 
difference, did you see a difference, and they said no.
    As we look at the speed and precision by which our 
Thunderbirds and the Navy Blue Angels have done it as well, if 
they can perform, and they don't see any difference, I think 
that it starts to allay some of the fears of our pilots that 
there is no impact.
    We have also done the robust testing and analysis in the 
laboratory and certification of those aircraft, so technically 
and from an engineering perspective there is no impact. From a 
personal perspective of individuals who have flown with that, 
they see no difference.
    Senator Sanders. Let me throw out a tougher question. That 
is, some will say that is all very well and good, but it is 
more expensive. Biofuels may be more expensive today than 
buying petroleum. We have a series budget crisis in America. 
How can you justify that? What is your response to that?
    Mr. Geiss. My colleague, Mr. Hicks, is dying to jump in.
    Senator Sanders. Mr. Hicks, why don't you respond to that?
    Mr. Hicks. Thank you, Kevin.
    I think what we are seeing today, and as Senator Inhofe 
pointed out, we did pay $15 a gallon for fuel, a very small 
quantity. That quantity represents .03 percent of the Navy's 
fuel spend and really is important that we purchase that so 
that we can do the proper research, testing, and evaluation to 
make sure there are ships and aircraft, that those fuels are 
transparent to them.
    I am not sure where the $3.9 billion figure comes from, but 
I think it probably stems from that $15 per gallon figure. We 
have no intention of paying a cost premium for these fuels and 
certainly no intention of paying $3.9 billion for premium in 
the future. Our efforts and where we see the market today, if 
you look at reports whether it is from Group SEC LMI, 
Institutions like MIT, Bloomberg, New Energy Finance, all 
suggest that these alternative fuels will be competitive 
without any additional outside forcing function such as 
Government investment in the 2018-2025 timeframe. We believe if 
we take an active role in that, we can drive down those fuels 
to parity in a much shorter timeframe.
    Senator Sanders. I would assume that for the mission of the 
United States military of defending our country, it would be 
preferable to be producing these biofuels on farms in the 
United States of America rather than importing from Saudi 
Arabia or other countries who are not necessarily friendly to 
us. Would that be a fair statement?
    Mr. Hicks. It would, Senator. From our view, this is an 
opportunity to produce the fuels domestically. It is also an 
opportunity for us to trade where we get those fuels, if you 
will, from countries that don't necessarily represent our 
values and interests with those that do. As a globally deployed 
force, we are going to need those fuels wherever and whenever 
we find ourselves.
    That said, if we cannot only produce more of those fuels 
ourselves and have more of our allies produce those fuels, I 
think it can make for some interesting strategic implication 
for us.
    Senator Sanders. Senator Boozman.
    Senator Boozman. Following up on the Chairman's 
questioning, by 2025 DOD says it is going to generate 25 
percent of its electricity from renewable sources. Again, there 
is the fuel component to this also. Do we know when we are 
going to have a cost even break, or maybe we are not going to 
achieve a cost even break but we feel the advantages are worthy 
of some increase? Have we graphed that out? Do we know how much 
this is going to cost us?
    Mr. Hicks. This may be a question for everyone on the 
panel. I will say as I mentioned in my remarks, the three most 
recent power purchase agreements, which are solar, photovoltaic 
arrays in China Lake, Barstow, and Twenty-Nine Palms, the day 
those begin producing that power will be cheaper than what we 
pay today and will be cheaper over the life of those 20-year 
contracts. We will save on those three contracts $20 million.
    That necessarily is not always going to be the case, but 
that is the ethos that we are bringing in this.
    Senator Boozman. In regard to 25 percent being generated by 
2025, not those contracts but the big picture, what is that 
going to cost us? How much more is our electricity bill going 
to be then? Because it is important. I think in your testimony, 
Mr. Hicks, you said that increased oil is costing us $1 
billion, that means less flying, less training, less at sea, so 
there is a finite amount of money so that is an important 
question. How much more is our electricity bill going to be in 
2025 than it is now?
    Mr. Hicks. I would like to see if my colleagues would like 
to respond to that, but I will say what we are doing and what 
we are pursuing is that it doesn't necessarily have to cost any 
more. What we are finding most recently is in fact that it 
doesn't. If we structure these contracts in the correct way, if 
we do our due diligence and use our mission compatible lands 
for these resources, we have an ability to produce power in 
specific locations, not necessarily around the country, that 
are below market rate.
    Mr. Kidd. I would just like to align my comments with 
Deputy Assistant Secretary Hicks. Because the Army is the 
largest electric consumer in the Federal Government, we also 
have to by the mandate produce that much more renewable energy 
to get to our 25 percent goal. As indicated in my opening 
remarks, we have created the Energy Initiatives Task Force, 
which is modeled to think and act like a private sector, 
project development entity that has to compete and attract 
capital to viable energy projects.
    Right now we believe that we have 81 projects across the 
Army that, according to models and preliminary analysis, could 
produce power for the Army at or below grid parity. These 
projects would more than exceed that 25 percent goal. The 
dramatic reduction in the cost of wind and solar power coupled 
with better building design and more efficient use of energy 
makes this goal attainable at little to no additional cost.
    Senator Boozman. The other thing is, and you are welcome to 
comment, there is just so much law. We are at these hearings 
all the time. The energy efficiency of the old motors that are 
all over the place compared to the new motors, things like 
that. I hope that we are looking at those kinds of things.
    Dr. Geiss.
    Mr. Geiss. Senator, some very good examples from the Air 
Force, one of the projects we are doing at Massachusetts 
Military Reservation in partnership with the Army is where the 
Air Force has the responsibility for environmental clean up. 
That environmental clean up requires quite a bit of 
electricity.
    As you may know, there is quite a bit of wind potential in 
that arena, and we have now constructed three wind towers that 
are powering that environmental clean up. It has an expected 
rate of return of 7 years, so after 7 years those turbines will 
be providing free power to MMR. That is a renewable example.
    Another example, Senator, you mentioned low hanging fruit. 
We have a project at Little Rock where we are replacing some of 
the water storage tanks up there. We are spending about $2.7 
million to replace those to reduce loss of water and reduce our 
power costs to do that.
    Another good example, at Dover, we are decentralizing the 
heat plant from an old 1950s era structure to brand new natural 
gas powered boilers. We expect that will reduce our energy use 
at Dover by 15 percent and save the Air Force $2 million a 
year.
    As my colleagues have said, we are looking very closely at 
the business cases, whether it incorporates renewable or not, 
but what makes sense at that particular location for the 
mission that we have and for the types of facilities and needs 
that we have at those installations.
    Senator Boozman. Thank you, Mr. Chairman.
    Senator Sanders. Senator Whitehouse.
    Senator Whitehouse. Thank you, Chairman.
    The suggestion was raised at the beginning of the hearing 
in one of the opening statements that this energy effort by our 
military might compromise the core priorities of the Department 
of Defense. As I recall, I was scribbling quickly so I may not 
have it exactly right, the military witness' testimony, Mr. 
Kidd said the energy program was mission critical, 
operationally necessary, and fiscally prudent and Mr. Hicks 
said that it provided greater combat capability to our military 
forces. Dr. Geiss said that it enables our war fighters, 
improves operational effectiveness, and enhances national 
security. Do I have that correctly?
    Mr. Kidd. Yes.
    Mr. Hicks. Yes.
    Mr. Geiss. Yes.
    Senator Whitehouse. Let me go on to another point about the 
cost issues. I ask unanimous consent to put in a statement by a 
veterans group called Operation Free which includes the 
following paragraph: ``America's oil dependence leaves us 
dangerously vulnerable. America spends over $1 billion per day 
overseas for oil. Our veracious demand for the single source of 
fuel ensures high oil prices in a global market draining our 
economy and enabling our enemies. Every time the price of a 
barrel of oil goes up $5, Iran makes an additional $7.9 billion 
annually.''
    When we are looking to use--Senator Sanders' example--home 
grown, American industry produced let us say algae fuel, 
because we have a wonderful algae company in Rhode Island that 
bioprocesses H<INF>2</INF>O that is doing this right now, and 
we compare that with foreign imported oil, the market price 
does not necessarily take into account the collateral 
considerations.
    For instance, the algae fuel is jobs in America, it is 
domestic supply, it contributes to energy independence. If it 
is exactly dollar for dollar, the same dollar sent overseas 
adds to say the government of Iran's revenues, makes us more 
vulnerable to the Straits of Hormuz, good luck blocking algae 
fuel from Kansas to fuel plants in the United States, it is a 
lot less vulnerable than Hormuz, how is it that the military 
takes into account those factors that are directly relevant to 
the true cost of imported oil versus the market cost as it 
bears on the military's own responsibility to care for the 
troops and try to reduce unnecessary conflict, save lives and 
operate effectively in the global environment?
    Mr. Kidd. Sir, in terms of domestic energy prices, I think 
I would associate myself with the comments that the market 
price does not reflect all the externalities. For the military, 
that is something we cannot control. When we make our 
investments, we have to use the rules and standards given to us 
by Congress and OMB. We can do that, and as I said, we can 
justify energy efficiency investment, renewable energy 
investments right now purely on a cost basis.
    Senator Whitehouse. Without considering externalities, but 
you would agree that the externalities are an added bonus that 
are good for our national security, our national interests, and 
the interests of the U.S. military?
    Mr. Kidd. Yes, sir. Operationally, many of those 
externalities are borne within the force. In other words, the 
casualty figures, the amount of resources that are diverted to 
protect convoys, the full burdened cost of delivered energy, we 
can start to calculate those. In the Army, we have deployed a 
Tactical Field Manager Defense System in Afghanistan so that we 
can now track the end use of all the fuel used.
    We are developing modeling tools that will allow us to 
better understand the true cost of our military, our Army, when 
we use fuels in combat, and this is being reflected in the 
Army's doctrine. The Army is a doctrinally driven organization 
and our operational energy doctrine will be emerging this 
spring and summer which over time will change almost everything 
the Army does, how we train, how we operate, what goes on in 
our schoolhouses, and what requirements we put into our future 
acquisition of equipment.
    Senator Whitehouse. My time has virtually expired, so as it 
expires, let me just thank all of you for what you are doing. 
It is work that, according to your own testimony, expands the 
resources available to our fighters and makes more effective in 
the field and protects our national interests by working toward 
domestically produced fuels.
    Although we haven't had a chance to, in my questioning, 
hear much from Ms. Gillespie-Marthaler, I wanted to thank you 
for both your service to our country and also for helping to 
coordinate this effort.
    Again, I would ask unanimous consent that the Operation 
Free statement go into the record.
    Senator Sanders. Without objection.
    [The referenced information follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Senator Whitehouse. The article about Solar Generator 
training to troops headed off to Afghanistan where Colonel 
Peter Newell, who is the Director of the Army's Rapid Equipping 
Force, says, ``This initiative is not just about saving fuel, 
it is about saving lives.''
    Thank you, Mr. Chairman.
    [The referenced material follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
  
    
    Senator Sanders. Senator Carper.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Thank you, Mr. Chairman.
    I am going to just give an abbreviated statement, and when 
I come back, the first question I have is for you Ms. 
Gillespie-Marthaler. The question will be, do you want to 
comment on any of the things you have heard these guys say, 
correct, add to, take away, or whatever you might want to do. 
Just be ready for that.
    One of my top priorities this year, which I share with 
President Obama and many of our colleagues, is to continue to 
support initiatives that spur job growth, initiatives that help 
create what I call a nurturing environment where communities in 
Delaware and beyond can generate jobs and prosperity.
    One of the best examples of this is through the Federal 
Government's actions to help advance development of clean, 
sustainable, and domestic energy. As many of you know, our 
country's dependence on fossil fuels exacts a huge cost on our 
economy. Our country sends, I am told, over $250 billion a year 
overseas to pay for our oil imports, roughly one-third of our 
trade deficit. Often this money goes to countries that frankly 
don't like us a whole lot, and some actually use our money to I 
think hurt us. This dependence also has an enormous public 
health cost for our Nation.
    The Federal Government can help level the playing field 
between fossil fuels and clean energy and be a catalyst for the 
creation and use of clean energy technologies including wind, 
solar, nuclear, and advanced vehicles.
    Having said that, simple common sense solutions should not 
be overlooked. As I have learned through my Subcommittee in the 
Senate Homeland Security and Government Affairs Committee, 
among other things, the Federal Government is the single 
largest energy user in our country. The Federal Government can 
lead by example by embracing new clean energy technologies. 
Just by changing our Federal Government's energy consumption, 
our Government can send a strong signal to marketplaces to 
encourage private investment in these new energy sources.
    Encouraging energy investments in new technologies like the 
development of offshore wind off the coast of States like 
Delaware, from North Carolina up to Maine, will nurture further 
economic development and job creation.
    Changing our Federal Government's energy consumption also 
will save money in the long run. We mentioned that here today. 
That is money that can be put toward job creation and debt 
reduction instead.
    Last year, in order to help agencies meet the fiscal and 
environmental challenges they had, I introduced something 
called the Reducing Federal Energy Dollars Act of 2011. This 
legislation is really a comprehensive set of proposals to, 
among other things, make it easier for Federal agencies to use 
private financing to pay for energy efficient retrofits at 
little or no cost to taxpayers.
    I believe this legislation will help the Federal Government 
lead by example and demonstrate to the American people that 
energy efficiency efforts are a gateway to job growth and can 
pay real dividends in saving both money and our environment.
    Thank you for letting me give that abbreviated statement, 
Mr. Chairman. If I could just ask some questions now, I would 
be grateful.
    Ms. Gillespie-Marthaler--the moment we have been waiting 
for--do you want to critique what these guys have been saying?
    Ms. Gillespie-Marthaler. Thank you for the question, 
Senator Carper.
    I have nothing to add nor to detract or contradict 
anything.
    Senator Carper. Don't pull your punches.
    Ms. Gillespie-Marthaler. Again, the EPA is very proud to 
partner where we can align our missions to bring better 
solutions to military bases. We look forward to that continuing 
cooperation.
    Senator Carper. Thank you.
    For our Air Force friends--we have a big Air Force base we 
are real proud of in Dover, as you know, a big airlift base. We 
are changing out C-5Bs for C-5Ms. One of them set I think 41 or 
42 records last fall in flying nonstop from Dover to I think 
Turkey. One of the things the C-5M, which is really the C-5B 
with a lot of new engines, new hydraulics, and a lot of other 
systems, does is it is a little more energy efficient. Would 
you just talk about the energy efficiency of large aircraft 
like the C-5M and how that is going to help us in this effort 
to use less energy?
    Mr. Geiss. Senator, you hit on my favorite topic.
    Senator Carper. Good; it is mine too.
    Mr. Geiss. From fiscal years 2010 and 2011, the initiatives 
that we put in place, we estimate we are saving about $165 
million in aviation fuel by basically changing how we fly and 
incorporating best practices from the commercial industry, 
improving aircraft like the C-5 where we talk a lot about the 
energy efficiency of that aircraft but the other benefits 
accrue in decreased sustainment costs, and we see that in some 
of the other engine improvement programs. We are looking at 
improving the KC-135 tanker and that will get us a few percent 
better in efficiency, but it will also save us about $1.5 
billion in life cycle costs.
    As we talk about attendant benefits beyond energy, 
sustainment cost is one of the significant things we see as we 
modify those aircraft.
    Using better scheduling techniques so that we can ensure 
when an aircraft lands at Dover, we are maximizing the amounts 
of cargo that can be loaded onto that aircraft. That is where 
that number came from I mentioned earlier, 3 percent more fuel 
and 27 percent more cargo is because we are getting better at 
how we plan those cargo flights.
    The Air Force will always respond to that demand on the 
ground. We will always have those 900 flights a day or expect 
to have every single day because we will continue to have 
disasters, humanitarian assistance, VIP transport, other 
airlift and tanker missions that we have and we see the biggest 
opportunity in decreasing our fuel bill and focusing on our 
mobility aircraft.
    Senator Carper. Thank you for sharing your enthusiasm.
    May I ask maybe one more question, Mr. Chairman, if you 
don't mind?
    The Department of Defense is unique--this is for the whole 
panel--among Federal agencies in its ability to enter long-term 
power purchase agreements which are essential to support long-
term project financing such as needed for offshore wind farms. 
Based on conversations we have had with industry, I believe the 
Department of Defense's participation in procuring offshore 
wind power could help launch the industry at scale in the U.S. 
fostering economic growth along our coastlines, especially from 
North Carolina to Maine.
    Could you each briefly describe your branch's efforts to 
purchase renewable energy off your bases and facilities? 
Specifically, I want to know about efforts involving offshore 
wind; are there major hindrances to long-term power purchase 
agreements by the DOD for offshore wind power? If any of these 
issues are statutory, have there been any discussions about 
identifying solutions?
    Mr. Kidd. Sir, obviously the Army doesn't have as much 
potential to talk about offshore wind as our sister Service, 
the Navy. They have all the good ocean view installations.
    Simply put, the power purchase agreement authority for 30 
years is a great asset for the Department, and that is the 
premise that we used in creating the Energy Initiatives Task 
Force, to maximize the Army's potential to take advantage of 
that authority that we have.
    Thank you very much.
    Senator Carper. Thanks.
    Let us hear from the Navy.
    Mr. Hicks. As I mentioned before, we have done three power 
purchase agreements very recently and are pursuing several 
others where we have a very good understanding of the unique 
power that authority allows us to use. We have used it to good 
effect in projects in California for solar, delivering power to 
the Navy at a below market rate over the life of those 20-year 
contracts.
    As it relates to offshore wind, specifically I think you 
mentioned North Carolina to Maine, we certainly have been 
engaged at the State level with the energy offices and the 
Governors' offices in every State looking to do that. Power 
purchase agreements appear to be an excellent way to look at 
wind.
    One of the challenges we have with that is when it relates 
to power purchase agreements, that power either has to be 
produced on an installation or directly connected to it. That 
becomes kind of the rub as it relates to offshore wind and 
power purchase agreements. We can look at--and are looking at--
our standard utility contracts, but those are limited to 10 
years. For these major types of efforts, typically we require 
more than a 10-year contract to really make the economics work.
    That said, we are working with a variety of interests along 
the Eastern Seaboard, working with the State energy offices and 
Governors' offices trying to come up with some way we can use 
that energy. We are very interested to do that. We are 
interested to do that where we have mission compatible wind, we 
are interested to be a customer.
    Senator Carper. Maybe one more quick comment, and if I 
could one last comment from the Air Force on this, offshore 
wind?
    Mr. Geiss. Senator, we have a robust portfolio of clean 
energy projects. I am not currently aware of any we are working 
on as far as offshore wind and would voice similarly the 
comments that my colleagues have made.
    Senator Carper. Thanks so much.
    Thanks, Mr. Chairman.
    Senator Sanders. Senator Whitehouse.
    Senator Whitehouse. Can I jump in for 1 minute?
    Senator Sanders. Yes, Senator Whitehouse.,
    Senator Whitehouse. I wanted to jump here for a minute with 
the Chairman's permission because I have a group of visitors in 
the room here from Rhode Island from the Cooley Group. They 
make, among other things, Cool-Flex, which is a flexible solar 
material that can go on the edge of a tent and be deployed in 
the field and provide power and help support cooling within.
    It was a coincidence they happened to come today and that I 
happened to be in this hearing while they came but it is a very 
tangible demonstration of how pursuing these initiatives 
creates jobs right here in Rhode Island in the United States of 
America that would otherwise have been spent on oil and much of 
it foreign oil.
    I just wanted to a take a moment and thank the people from 
Cooley Group who are here and thank all of you again.
    Senator Sanders. Senator Whitehouse, a moment ago you used 
the fancy word externalities. I think Mr. Kidd appropriately 
responded by saying that for him and the military, they are 
looking at the bottom line, can the fuel they are buying now be 
seen as cost effective with other fuels.
    I think, Mr. Hicks, you gave us some examples where today 
the contracts you are signing for sustainable energy are 
competitive with the more mature fuels.
    When we talk about externalities, let us not forget that 
may not be within your jurisdiction, but externalities have a 
lot to do with whether or not we should have been in Iraq in 
the first place, a war many thought might be a war for oil, or 
Afghanistan, or our foreign policy in the Middle East. This is 
a huge, huge issue.
    Externalities means thousands of people who died in that 
war, tens of thousands who came home with PTSD or TBI. When we 
talk about externalities, it is not only creating jobs in 
Vermont or Rhode Island, it is dealing with issues of whether 
or not we have to fight wars for oil or whether we can grow our 
energy in the United States and become energy independent, 
whether or not we can create perhaps hundreds and hundreds of 
thousands of jobs creating that energy. It is an enormously 
important issue.
    Let me get to Mr. Hicks. In Vermont, I worked with the 
Vermont National Guard, as you know, to install a significant 
PV panel installation there. It is now producing 1.45 megawatts 
of solar; it is providing 40 percent of the installation's 
needs for the National Guard at that location, saving the 
National Guard over $240,000 a year.
    Do projects like this make sense? Are we seeing projects 
like this taking place in other areas of the country?
    Mr. Hicks. The answer is yes, and it will depend on the 
local market conditions, the local availability of resources. 
In the case of solar, for example, is there enough solar 
capacity; in the case of wind, is the wind blowing at the right 
speeds and right heights; and what is the local cost of power? 
All of those are factors as well as other factors such as 
environmental assessments and siting that come into play and 
ultimately determine the economics of a project. That said, we 
are seeing projects across the country from Hawaii and southern 
California.
    Senator Sanders. Go into depth a little, if you can. I know 
you mentioned this. Exactly what are we talking about across 
the country where sustainable energy is now cost effective with 
the more mature industry?
    Mr. Hicks. I think what we are seeing in California with 
the cost of power, in addition to the production tax credits 
which do have an impact on that, we are seeing solar being 
competitive in those markets. We are also seeing other 
technologies whether it is waste to energy, geothermal is 
another we see, and that is more related to the southwest where 
we see geothermal as an opportunity to use those resources. The 
Navy has a plant that is rated at 270 megawatts of power, the 
largest plant in the Navy.
    Senator Sanders. We have talked to people in the geothermal 
industry who think there is huge potential in geothermal. Do 
you agree with that?
    Mr. Hicks. I do. There is enormous potential. We have seen 
this from our own experience in running a plant or having a 
plant on our base for the past 25 years at China Lake rated at 
270 megawatts. It is not quite producing that today, but that 
is the nature of geothermal over time. That said, there are 
many other opportunities in the southwest not only at the Navy 
installations but also at the Army and the Air Force for 
geothermal.
    Senator Sanders. Dr. Geiss, why don't you jump in. What do 
you see as the potential of solar with the significant 
declining price of PV in this country for the military?
    Mr. Geiss. From my experience, one of the most impactful 
elements in making those things pencil out or be economic, what 
is the State environment, what is the utility experiencing? If 
there are renewable energy credits for that State, if there is 
a renewable portfolio standard, what is the utility price; all 
of those things determine whether it is actually going to be 
financially viable.
    I may have said we are not pursuing energy for the sake of 
energy, we are pursuing it for what it does for us and we have 
to consider what that cost is. As we look at the opportunities, 
where it makes sense, where the costs work out, those are the 
areas we are targeting for these renewables.
    Senator Sanders. Mr. Kidd, do you want to jump into that 
discussion?
    Mr. Kidd. Sure, I am happy to. Again, what Dr. Geiss said 
is very important. The Army has 155 installations across 
America. We have over 200 utilities, a fact I am still trying 
to get my brain around, but certainly the local conditions at 
the State as well as the local utility level are big factors in 
whether or not renewable energy projects will pencil out and go 
forward.
    In White Sands Missile Range, the Army just signed an 
energy savings performance contract to install solar panels. 
What makes these panels so attractive is the new peak pricing 
charge that has gone into effect so that the panels will 
actually be producing at the time of day when the electricity 
rates are the highest.
    In many places right now, Hawaii, Puerto Rico, and other 
areas in the country, solar panel is the cheapest power you can 
bring online at this point in time, so that is very attractive 
to the Army.
    In your opening comments, you mentioned the National Guard, 
and if Senator Merkley were here from my home State I would 
have talked a great deal about one of the Army's net zero 
efforts which is with the Oregon National Guard with the intent 
to make all of Fortress Oregon, as they call it, Fort Oregon, 
net zero. One of the things that is attractive to the Governor 
and the Adjutant General in Oregon is the Adjutant General also 
wears the hat of Director for Emergency Response for the State, 
which is the same case in 34 States across America.
    With that, the Oregon Guard is planning that they will have 
energy secure and reliable installations for the National Guard 
so they can respond to the Governor in the time of crisis. It 
is very interesting working in Oregon with the Department of 
Energy and EPA on helping move those efforts forward.
    Senator Sanders. Thanks very much.
    Senator Boozman.
    Senator Boozman. Thank you, Mr. Chairman.
    Again, I appreciate your comment, Dr. Geiss, about where it 
makes sense in the areas that it does work because again, it 
doesn't matter if the increase is due to a surge in oil prices 
or a surge in switching over to some new technology, the 
reality is, I think we would all agree, that means less money, 
as you said, Mr. Hicks, for training, less money for the things 
that it takes for our core mission. That is what I was really 
referring to, Senator Whitehouse.
    I understand the statements that it is this way or that 
way, but that is the purpose of the hearing, to really make 
sure it is this way or that way.
    One of the things I am also looking at, some of the fuels 
we are using now don't have as much bang for the buck in the 
sense they don't have as much energy. In other words, you might 
have to have more quantity for a gallon of gasoline, you might 
have to have more quantity for it. Is that true, as in the case 
of ethanol?
    Mr. Hicks. That is true for ethanol, the power density 
isn't as great. To be clear, the fuels that we are all pursuing 
are the advanced biofuels, second and third generation fuels 
where that is not an issue. For us, we are not going to 
sacrifice any decrease to a range of our ships or our aircraft.
    Senator Boozman. So the power density would be same or 
greater?
    Mr. Hicks. That is correct.
    Senator Boozman. Again, one of the problems you guys know 
much better than I, and Ms. Gillespie-Marthaler coming through 
the Academy, transport is a huge deal on the field, putting 
people at risk in hauling more fuel. These are the kinds of 
things that I think we really need to be looking at.
    Again, I appreciate your testimony, and I think one of the 
good things about your testimony is you are reassuring me that 
you really are looking at this in the way I would like for you 
to look at it in the sense that not only do we have limited 
resources in the energy department in the sense of natural 
resources, we have limited resources in the financial ability 
we have as we are seeing the significant cuts.
    Mr. Hicks, in your testimony you mentioned strategically we 
are at risk because much of the fuel we use comes from volatile 
regions of the world. Canada wouldn't be one of those, would 
it?
    Mr. Hicks. No, Senator.
    Senator Boozman. That might be a reason we might look to 
Canada for some of our needs in the future?
    Mr. Hicks. I don't have the figures myself, but that said, 
we do purchase fuel from about 600 places around the world 
wherever and whenever we need it. That fuel is ultimately 
sourced from whatever makes the most sense logistically, so a 
lot of that fuel comes from places such as the Middle East.
    Senator Boozman. I agree with you totally. That is 
certainly a consideration.
    We appreciate your being here, appreciate your testimony, 
appreciate all of your hard work. I might ask you one last 
thing. Tell me why the EPA is such that in using renewables in 
our military, why we cannot use national forest wood?
    Ms. Gillespie-Marthaler. Senator Boozman, I appreciate the 
question. It falls outside of my realm of expertise, so I would 
be happy to take that back to the EPA to provide additional 
information if you would like.
    Senator Boozman. Good. Thank you. I think it has fallen out 
of the realm of a lot of people when the question is asked. It 
seems it would make sense that the forests we manage as a 
country would be eligible to be used by another agency of our 
Government.
    Ms. Gillespie-Marthaler. I think additionally it is outside 
of the EPA's jurisdiction with respect to the national Forest 
system but again, I will be happy to take that back.
    Senator Boozman. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Sanders. Thank you, Senator Boozman.
    Senator Whitehouse. All set.
    Senator Sanders. Senator Carper.
    Senator Carper. Thank you.
    Ms. Gillespie-Marthaler, I have no more questions for you. 
Rest easy. At ease, as we say.
    I do have a question for Mr. Kidd. I might just add my 
grandmother was a Kidd; we are probably related somewhere. She 
turned out pretty well, and I am sure you have, too.
    Mr. Kidd. My grandmother would agree with that.
    Senator Carper. That is good.
    How many of the Army's total, non-tactical vehicles are 
powered at least partially by non-petroleum fuel sources? Do 
you have any idea?
    Mr. Kidd. Senator, non-tactical vehicles or tactical 
vehicles?
    Senator Carper. Non-tactical vehicles powered at least 
partially by non-petroleum fuel sources. If you have some idea, 
let me have it, and if you don't, just answer for the record.
    Mr. Kidd. Senator, I will get an answer back to you for the 
record on the exact number. I would like to say that the Army 
does have the largest non-tactical vehicle fleet in the Federal 
Government. We reduced our petroleum consumption last year by 8 
percent in 1 year, and we are on track to meet or exceed all 
Federal mandates for petroleum reduction, alternative fuel use, 
and alternate vehicle use.
    I will get you the exact breakdown, but we have a large 
number of electric vehicles, hybrid vehicles, and E85 vehicles 
in the non-tactical fleet. On the tactical fleet side, we are 
qualifying our biofuels for use and certifying our vehicles and 
generators to use that fuel when it is available at the market 
in a price competitive manner and the quantities that we need.
    Senator Carper. You partially answered my next question, 
but I am going to ask it anyway, and maybe you can work around 
what you have just said. How will the Army pursue its goal of 
reducing petroleum use in tactical vehicles by 20 percent by 
2015? Will the Army just largely replace its inefficient 
clunkers with newer, more efficient petroleum fuel vehicles, or 
will the Army be seeking to replace some of their vehicles with 
hybrids or hydrogen-powered vehicles?
    Mr. Kidd. The Federal goals apply to the non-tactical 
vehicle fleet, and we are using a variety of mechanisms. We are 
downsizing the fleet, reducing the number; we are right sizing 
the fleet, using a more fuel efficient vehicle to do the 
required job; and we are transitioning to alternate fuel and 
alternate powered vehicles as warranted.
    At Fort Carson, Colorado, the Army will soon deploy the 
largest vehicle to grid charging capacity in the United States, 
and we are looking to model whether large electric powered 
delivery vans and delivery trucks can provide energy storage on 
the installation to help provide some energy security.
    Senator Carper. A question, if I could, for Mr. Hicks.
    Mr. Hicks, I am curious about how the Department of the 
Navy tracks energy consumption. Does the Navy conduct regular 
energy consumption and efficiency audits? Does the Navy have 
the ability to precisely know where its forces are the most 
energy inefficient? Have these audits ever led to changes in 
missions or to the assets used in these missions?
    Mr. Hicks. Thank you, Senator.
    The Navy, with respect to our installations, we audit 25 
percent of our buildings or square footage per year, so every 4 
years, all of our installations will have gone through 
comprehensive energy audits. Those audits create energy 
projects that we either fund or seek third party financing on 
for those that make sense.
    We are also installing 27,000 advanced meters. We are more 
than halfway through that process of installing those meters. 
That is around the globe at all of our installations, our 
roughly 100 installations around the globe, Navy and Marine 
Corps. Those advanced meters will provide us data at a level of 
granularity that we have not had before.
    On top of that, we are adding an energy management system 
using some commercial, off the shelf software modified just 
slightly for the use of the Navy that will be able to take in 
that data and be able to better understand how our energy is 
being used, and we will also be better customers of the 
utilities in the sense of being able to more promptly pay our 
bills in the future.
    Senator Carper. I have a question for the record. I am 
going to ask a question about something called Bloom Boxes. I 
don't know if you have heard of Bloom Boxes, but they are 
developed by a company in California. The fellow who runs the 
company used to work on NASA projects. The idea was to create 
all sorts of electricity in outer space using fuel cells I 
guess with hydrogen and natural gas. I think they have the 
ability to also use biofuels for creating electricity as well. 
Is that something you have ever heard of or thought of?
    Mr. Hicks. I certainly have head of them. I met with the 
folks from Bloom Energy, and I believe we actually have at 
least one, perhaps two, of those boxes in Hawaii, I want to 
say, but we can take that for the record and provide more 
information on that and let you know how those projects are 
going as well.
    Senator Carper. Thanks.
    Mr. Kidd. Senator, the Army is interested in exploring fuel 
cell technology, and we are doing at a variety of scale that 
two Airborne Brigade combat teams I mentioned earlier will be 
taking portable fuel cells with them as part of their new 
equipment for the recharging of batteries. Referring to the 
earlier comment on power density, the most important power 
density in the Army is the power that is stored in the 
batteries that our soldiers carry into combat. We have been 
investing a great deal on battery technology as well as 
renewable systems to charge those batteries.
    Last year, the Army spent, for the first time, 52 percent 
of our battery buy for rechargeable batteries. At the start of 
the war it was 2 percent. We do that because that gives some 
tactical flexibility to our soldiers to recharge on the move 
either with renewables or with the fuel cells.
    On the fuel cell and installation side, in terms of 
partnerships, the Army is partnered with the Department of 
Energy; we are testing fuel cells at 8 different installations, 
and we can give you some more details on that, a variety of 
shapes and sizes from different manufacturers.
    Going back to the cost competitive nature, we have to make 
sure the business case works, and we are not quite there yet.
    Senator Carper. Good. Thank you.
    Mr. Chairman, I would just observe a couple of months ago 
driving to the train station I was listening to NPR, and they 
were reporting on an international study where they asked 
thousands of people around the world what they liked about 
their work. Some people said they liked getting paid; some 
people said they liked the benefits, vacations, health care, 
pension; some people said they liked the folks they worked with 
or the environment in which they worked. But most said the 
thing they really liked about their work was they thought what 
they were doing was important, and they were making progress.
    I would just observe that what you are doing in your 
respective branches of the Armed Services is important and we 
are making progress. As we say in the Navy, Bravo Zulu, go get 
'em.
    Thank you.
    Senator Sanders. I think we all concur with that. Thank 
you, Senator Carper.
    Senator Whitehouse.
    Senator Whitehouse. Thank you, Chairman.
    Let me add one final document to the record and ask Mr. 
Hicks a question about it. It relates to the Navy specifically. 
It is a document by Kathleen Paulson at Navy Facilities 
Engineering Service Center. It is entitled U.S. Naval 
Facilities Engineering Service Center Environmental Program on 
Climate Change.
    There are no trick questions here. Let me just tell you 
what it says. ``The Navy is now beginning to appreciate the 
potentially devastating potential of a new set of environmental 
issues related to climate change. There is a growing 
recognition that the Navy will need to perform its national 
security mission in a changing global environment characterized 
by,'' and then there are three bullet points: ``One, rising sea 
levels that threaten the viability of Navy coastal 
institutions; two, increasing extreme weather events that 
threaten Navy shore installations and air and sea operations; 
and third, climatic shifts in temperature and precipitation 
with attendant problems such as disruption in water resources, 
reductions in food supply and increase in disease vectors.''
    Making it more specific, the report goes on to point out 
that ``The Navy owns over 500 piers and wharves where certain 
regions of the world might experience as much as 3 meters of 
sea level change with combined land substance and sea level 
rise with, as a result, waterside facilities potentially 
becoming unusable.''
    I come from Rhode Island. We are the Ocean State and have a 
lot of coastline in addition to the wonderful Newport Naval 
Station that is there. I wonder if you could just give us a few 
comments. It sounds to me as if there is no doubt in the Navy's 
mind that carbon pollution is causing very significant climate 
and oceans impacts; that they include sea level rise; that they 
include worse storms and include environmental changes that 
impact Navy operations.
    Is that an accurate statement? Does the Navy have any 
hesitation that manmade carbon pollution is creating changes in 
our atmosphere and in our oceans that having these effects?
    Mr. Hicks. Thank you, Senator.
    I guess I would like to start by saying the Navy's 
investments in this, what we have in our fiscal year 2013 
budget, and what we have across the future years' defense plan, 
is really on energy. It is not about an environmental agenda. 
Let me start there.
    It is about combat capability. That said, we do take our 
direction, if you will, and look toward touchstone documents 
such as the Quadrennial Defense Review which looks at climate 
change as an accelerant to future challenges. From that, our 
investments take their cues and we invest accordingly.
    I am not familiar with the document you mentioned, would be 
happy to review that and to the extent that represents the 
Navy's perspective, but those are certainly impacts that are 
being felt. There are also others that we know of over the next 
20 to 30 years where we may see the Northwest Passage open for 
the first time, and that has other strategic implications for 
us as the Service charged with protecting the global commons of 
the sea lanes, so that is something that provides future 
challenges for us.
    I would like to have some opportunity to review that 
document and be able to provide a more full response to you. 
For us, this is about enhancing our combat capabilities. We 
recognize that there are additional benefits that come with 
that. I think that document may speak to those.
    Senator Whitehouse. Is it fair to say that each one of our 
military services neither doubts nor denies the reality of 
climate changes caused by carbon pollution, and indeed, you are 
spending significant resources in order to anticipate and deal 
with those effects, correct?
    Mr. Kidd.
    Mr. Kidd. Senator, it is clear that there is a policy 
position and a considered opinion of the scientific bodies of 
the Federal Government that what you said is true. The Army 
follows that position.
    Senator Whitehouse. You neither doubt nor deny it?
    Mr. Kidd. It is not my job to have doubt or deny or to 
ascertain. It is my job to follow the policy.
    Senator Whitehouse. I mean the organization.
    Mr. Kidd. We follow the policy that is established in the 
Quadrennial Defense Review and other documents put out by the 
Department of Defense and the scientific advice we get from the 
Department of Energy, NOAA, and others. Also, we live and work 
in the real world, and our soldiers, on a day to day basis, are 
first line observers of the changes that our world is going 
through right now.
    Senator Whitehouse. There is nothing in the Quadrennial 
Review that doubts or denies the science behind climate change, 
correct?
    Mr. Kidd. That is correct.
    Senator Whitehouse. Mr. Hicks, same answer?
    Mr. Hicks. I would concur with those comments. Again, our 
views will come from that doctrine, the Quadrennial Defense 
Review, which recognizes the challenges that climate change can 
propose.
    Senator Whitehouse. Dr. Geiss.
    Mr. Geiss. As well, I agree with the Quadrennial Defense 
Review perspective.
    Senator Whitehouse. Thank you.
    [The referenced information follows:]
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
        
    Senator Sanders. Thank you, Senator Whitehouse.
    Let me direct a question, if I could, to Mr. Hicks.
    Mr. Hicks, as I understand it, Section 526 of the 2007 
energy bill prohibits the use of high carbon fuels including 
oil from tar sands for the United States military. Is the Navy 
comfortable with that?
    Mr. Hicks. I am quite familiar with the Energy Independence 
and Security Act of 2007, Section 526. I will make two 
comments. One, we feel it is an effective policy. From what we 
have seen across this Nation of the companies that are looking 
to provide alternative fuels, that does not seem to be a 
barrier to their ultimate success. In fact, many and most of 
those companies are able to produce fuels that have half the 
life cycle greenhouse gas emissions of petroleum.
    As relates to tar sands, my understanding is that has been 
already ruled upon and that those fuels from tar sands are able 
to be used and are kind of excluded from that definition within 
Section 526. I could be mistaken, but I believe that is the 
case.
    Senator Sanders. I think Senator Boozman is going to say a 
word in a minute, but let me make my final remarks by saying 
this. Willie Sutton famously said that the reason he robs banks 
is because that is where the money is. The reason we are doing 
an energy hearing with the military is you guys are the largest 
consumers of energy in the United States of America and I think 
the largest single entity in the world.
    If we are serious about energy, we have to be serious about 
what the United States military is doing. I think I concur with 
what Senator Carper said a moment ago. We think you guys are 
doing really some extraordinarily good work, both in terms of 
energy efficiency and trying to move this country and the 
military to safer, more sustainable energies.
    In particular with the military, it is not just a dollars 
and cents issue. It is an issue of fulfilling your mission of 
defending this country. If we can, through sustainable energy, 
keep our troops safe in Iraq, Afghanistan, or any other field 
of battle by developing and expanding these new technologies, 
we have performed a huge service.
    If as a result of your work in sustainable energy you help 
bring down, as a major consumer, these energies, you help bring 
down the cost of solar, you help us develop new technologies in 
wind, utilization of geothermal, create breakthroughs in energy 
efficiency. What you have also done is above and beyond the 
military; you have implemented important national goals.
    I want to thank you very much for what you are doing, and I 
see some really exciting progress being made in the United 
States military in that area.
    Senator Boozman.
    Senator Boozman. Very quickly, again, I do appreciate your 
testimony. I appreciate the service of all of you to our 
country and your being in uniform.
    In regard to climate change, I think we all agree that the 
climate is changing. The question is what is causing that, so 
that is really the sticking point. I think, Mr. Kidd, that you 
are trying to avoid the reason or whatever.
    When I was in school many years ago, I was told that we 
would have a 20-year supply of natural gas, and we would run 
out. I was told we were on the verge of an ice age. Again, as I 
said, the idea that you are planning based on climate change, 
we are having that in rising seas and whatever unrest.
    You mentioned for the first time having perhaps a new route 
to get around. There are going to be pros and cons. It is good 
you all are thinking about that.
    Like I said, we do appreciate your testimony. The other 
thing is, I would agree with the Senator, in the sense these 
are things that when they work, we need to be exploiting. It 
does seem the attitude you are using in regard to if it is cost 
effective, if it is good for our troops, it is good for the 
mission, those are the things we are going to be doing and not 
just be doing things just to be doing them to meet some goal. 
Again, I think that is a concern, and yet I think you have done 
a good job today of basically tamping that down, which is real 
important.
    We appreciate your testimony and service to our country.
    Thank you, Mr. Chairman.
    Senator Sanders. Thank you, Senator Boozman.
    With that, this hearing is adjourned. We thank the 
panelists very much for being with us.
    [Whereupon, at 11:43 a.m., the Subcommittees were 
adjourned.]
    [An additional statement submitted for the record follows:]

                   Statement of Hon. Jeff Sessions, 
                 U.S. Senator from the State of Alabama

    Good morning. Thank you, Chairman Sanders and Chairman 
Whitehouse, for holding this oversight hearing concerning EPA's 
work with the Defense Department and other agencies to reduce 
energy consumption and environmental impacts.
    In fiscal year 2013, under the President's proposal, our 
Government will run the 5th consecutive trillion dollar 
deficit. That is not sustainable, and if our debt course is not 
corrected will lead our Nation straight to the most predictable 
economic crisis in history. We have to act now to ensure that 
all Federal agencies are operating as efficiently as possible; 
that means at the lowest possible cost, and yes, it can also 
mean with minimal adverse impacts to the environment.
    I am pleased that we have the Deputy Assistant Secretaries 
of Energy for the Army, Navy, and Air Force here today. The 
Defense Department (DoD) is the Nation's single largest energy 
consumer. DoD comprises about 80 percent of Federal sector 
energy consumption. In fiscal year 2010 DoD spent almost $4 
billion on energy consumption at its various facilities. It is 
fiscally and environmentally smart for the Defense Department 
to reduce energy consumption to the extent possible. In fact, 
DoD has already reduced its facility energy consumption more 
than 10 percent since 2003. That is substantial progress.
    However, I am concerned about some areas where DoD is being 
forced by politicians to make green energy commitments for 
reasons other than cost savings to the Government. Importantly, 
in 2009 President Obama issued Executive Order 13514, which 
told all Federal agencies, including the Defense Department, to 
take the `'lead'' on ``creat[ing] a clean energy economy.'' He 
said the Federal agencies must ``reduce their greenhouse gas 
emissions,'' make greater use of ``renewable energy'' such as 
solar power, and consider the purchase of ``alternative fuel 
vehicles.'' This was an ambitious and costly directive. One may 
wonder whether he was looking to ensure a customer base for his 
other social engineering experiments--Solyndra and the like, 
which have wasted billions. When our Nation is facing 
substantial cuts to the Defense budget, we simply cannot afford 
to impose unwarranted green energy mandates on DOD, especially 
if they will increase the cost taxpayers pay to run these 
facilities.
    I am also concerned about some of the requirements that 
have become part of Federal agency building standards. The 
President's Executive Order told agencies to use 
``environmentally preferable materials.'' That, apparently, 
does not include many kinds of American lumber. Why would 
renewable materials like trees grown in the United States not 
be considered ``environmentally preferable materials''? I think 
that is something that needs to be looked at closely.
    Finally, we cannot have a discussion about DoD's energy 
consumption issues without also talking about the importance of 
energy independence in our Nation. If the United States becomes 
energy independent, our Nation's warfighter will be energy 
independent and better able to complete the missions asked of 
them. So what can we do to become more energy independent? 
Conservation has an important role to play. And so does 
development of new energy technologies. But most significantly, 
the U.S. has the ability to become the world's largest supplier 
of energy. If the Administration would just get serious about a 
pro-American energy policy, we can produce more oil here at 
home, where it can be refined into gasoline by American 
refineries. We can obtain massive amounts of oil shale from 
Canada and move it to U.S. refineries along the Gulf Coast via 
the Keystone XL pipeline. We can continue to produce our 
abundant sources of coal and natural gas. And we can finally 
start building new nuclear reactors in the U.S.
    If we use more of our affordable, reliable, clean U.S. 
energy sources, the Defense Department will benefit, the 
environment will benefit, the economy will benefit, the 
security of our Nation will benefit, and the hardworking people 
of this country will benefit.
    Thank you.

                                 [all]
</pre></body></html>
